USCA4 Appeal: 18-4295

Filed: 05/29/2020

Doc: 130

Pg: 1 of 1

fippgtflffX la

FILED: May 29, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4295
(7:16-cr-30026-MFU-4)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
TERRANCE NATHANIEL BROWN, JR., a/k/a War, a/k/a War Stone, a/k/a
Luciano
Defendant - Appellant

ORDER

The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Wilkinson, Judge Agee, and
Judge Thacker.
/

/

For the Court
/s/ Patricia S. Connor, Clerk

USCA4 Appeal: 18-4295

Doc: 121

Filed: 05/01/2020

Pg: 22 of 31

ftppaipix {2a
THACKER, Circuit Judge, dissenting, in part:
I dissent solely with respect to the sentencing of Appellant Terrance Nathaniel
Brown, Jr. I have grave concerns that following this case, with a wave of the hand and the
disclaimer that the sentence imposed for a drug distribution conspiracy would be the same
regardless of the quantity of drugs distributed, district courts can essentially disregard the
relevant Sentencing Guidelines range and count on us to credit their 18 U.S.C.
§ 3553(a) analysis as sufficient, even absent a requisite finding as to the nature and scope
of the conduct at issue.
Therefore, for the reasons set forth below, I would remand for resentencing so that
adequate factual findings can be made on the record with regard to Brown’s purported
responsibility for his co-conspirator’s drug weight.
I.
At sentencing, Brown objected to the drug weight calculation in his presentence
investigation report (“PSR”). Specifically, he contended that his Sentencing Guidelines
range was overstated because the base offense level calculation attributed to him 180
kilograms of marijuana equivalent distributed by a subordinate drug dealer, Corey Owens.
Based on evidence provided by Owens and a narcotics agent at the sentencing
hearing, the district court concluded that the drugs attributable to Owens were reasonably
foreseeable to Brown and, thus, were attributable to Brown. And the district court adopted
Brown’s PSR in its entirety. As a result, the district court varied upward from Brown’s
Sentencing Guidelines range of 188 to 235 months to impose the statutory maximum of
240 months’ imprisonment. The district court also indicated it would have imposed the
22

USCA4 Appeal: 18-4295

Doc: 121

Filed: 05/01/2020

Pg: 23 of 31

same sentence based on the 18 U.S.C. § 3553(a) factors irrespective of the drug weight
calculation.
II.
We review a district court’s sentencing decision by determining first whether there
has been procedural error and second whether a sentence is substantively reasonable.
United State v. Provance, 944 F.3d 213, 215 (4th Cir. 2019). We review factual findings
for clear error, including a district court’s drug weight determination. United States v.
Flores-Alvarado, 779 F.3d 250,254 (4th Cir. 2015). “[I]f the district court makes adequate
findings as to a controverted sentencing matter, this court must affirm those findings unless
they are clearly erroneous.” Id. (emphasis supplied) (alterations and internal quotation
marks omitted).
Pursuant to the Sentencing Guidelines, a sentencing court determines a defendant’s
offense level by evaluating his “relevant conduct,” that is, his own acts as well as, “in the
case of a jointly undertaken criminal activity . . . , all acts and omissions of others that
were:” (1) “within the scope of the jointly undertaken criminal activity”; (2) “in furtherance
of that criminal activity”; and (3) “reasonably foreseeable in connection with that criminal
activity.” U.S.S.G. § 1B1.3(a)(1)(B) (2016). All three aspects of this joint activity must
be proven by a preponderance of the evidence. United States v. Bell, 667 F.3d 431, 440
(4th Cir. 2011). Acts of others outside the scope of the conspiracy in which the defendant
agreed to participate — even if those acts are known or reasonably foreseeable — are not
“relevant conduct” for sentencing purposes. See U.S.S.G. § IB 1.3 & cmt. 3B.

23

USCA4 Appeal: 18-4295

Doc: 121

Owens’s operation.

Filed: 05/01/2020

Pg: 25 of 31

Though Owens distributed cocaine as well as marijuana, the

Government did not put on evidence associating Brown with Owens’s cocaine.
The district court credited the cooperators’ testimony about Owens’s marijuana
distribution and expressly rejected Owen’s disavowal of a supervisory relationship
between the co-conspirators. Emphasizing the district court’s statement that its sentencing
decision would have been unchanged regardless of any difference in the drug weight, the
Government argues that any error in the drug weight attribution was harmless. The
majority accepted this harmless error argument. I do not.
B.
A district court’s Sentencing Guidelines error is harmless if “(1) the district court
would have reached the same result even if it had decided the [Guidelines issue the other
way, and (2) the sentence would be reasonable even if the [Guidelines issues had been
decided in the defendant’s favor.” United States v. Gomez-Jimenez, 750 F.3d 370,382 (4th
Cir. 2014) (internal quotation marks omitted).

Undertaking an “assumed error

harmlessness inquiry,” id., we assume the district court erred by attributing Owens’s drug
quantities to Brown. Here, the district court expressly indicated its evaluation of the 18
U.S.C. § 3553(a) factors compelled its sentencing decision no matter the quantity of drugs
the court were to find. Crediting that assertion, we next ask whether the sentence would
be reasonable even if Owens’s drugs were not attributed to Brown.
But without Owens’s drug quantity, Brown was only personally connected to
approximately three kilograms of marijuana equivalent, which supports a base offense
level of eight, a total offense level of 17, and a Sentencing Guidelines range of 37 to 46
25

USCA4 Appeal: 18-4295

Doc: 121

Filed: 05/01/2020

Pg: 28 of 31

C.
On appeal, we lack key factual determinations as to the scope of Brown’s
involvement in the drug distribution and certainly do not have an adequate explanation as
to how a 240-month sentence for drug distribution involving three kilograms of marijuana
equivalent avoids “unwarranted sentence disparities among defendants with similar
records

who

have

been

found

guilty

of similar

conduct.”

18

U.S.C.

§ 3553(a). Though adopting the PSR “can be a satisfactory means of resolving factual
disputes,” Flores-Alvarado, 779 F.3d at 256 (citation omitted), the PSR here did not
identify an agreement between Owens and Brown involving cocaine distribution, nor did
it explain how such distribution would have been foreseeable to Brown. The district court
needed to make these determinations on the record and its failure to do so interferes with
our ability to fairly review Brown’s sentence.
“[T]he assumed error harmlessness inquiry is an appellate tool that we utilize in
appropriate circumstances to avoid the ‘empty formality’ of an unnecessary remand where
it is clear that an asserted guideline miscalculation did not affect the ultimate sentence.”
United States v. Hargrove, 701 F.3d 156, 163 (4th Cir. 2012) (emphasis supplied). In my
view, this is not such a case. As we have previously explained, our assumed harmless error
standard is not meant to “allow district courts to ignore their responsibility to consider the
[Guidelines in a meaningful manner when sentencing a defendant.” Id. (citing Rita v.
United States, 551 U.S. 338, 351 (2007)). I fear that the majority’s decision — utilizing
harmless error analysis to uphold a 194-month variance primarily based on a defendant’s
acquitted conduct as opposed to the actual offense of conviction - does just that.
28

USCA4 Appeal: 18-4295

Doc: 121

Filed: 05/01/2020

Pg: 29 of 31

IV.
A.
Because I am firmly of the view that we cannot hold the assumed error to be
harmless, I would consider whether the district court did in fact err. Here, the district court
failed to make a finding as to the scope of Brown’s agreement sufficient to meet our
standard. Therefore, in my view, we should remand for that finding to be made on the
record. See Flores-Alvarado, 779 F.3d at 255 (quoting United States v. Soto-Piedra, 525
F.3d 527, 531 (7th Cir. 2008) (“Conspiracy liability ... is generally much broader than
jointly undertaken criminal activity under [the Sentencing Guidelines]”)). “[T]o determine
the defendant’s accountability for the conduct of others under [the Sentencing Guidelines],
the court must first determine the scope of the criminal activity the particular defendant
agreed to jointly undertake (i.e. the scope of the specific conduct and objectives embraced
by the defendant’s agreement.” U.S.S.G. § IB 1.3 cmt. 3B (2016).
Without such a finding, we cannot even proceed to determine which of Owens’s
drugs (especially the cocaine amounts) are within the scope of Brown’s agreement with
Owens. How can we? The district court itself did not explain the scope of that agreement.
The district court erred in failing to recognize that Owens’s drug weight included cocaine.
The Government attempts to avoid drawing attention to this by arguing that the district
court “credited the trial testimony ... that Brown and Owens sold drugs together.” Gov’t
Br. 33-34. But the relevant trial testimony and the court’s conclusion referenced marijuana

29

V

USCA4 Appeal: 18-4295

Doc: 121

Filed: 05/01/2020

Pg: 31 of 31

dealing. In Flores-Alvarado, we made clear that the district court must define “the scope
of the criminal activity the particular defendant agreed to jointly undertake.” 779 F.3d at
256 (quoting U.S.S.G. § IB 1.3, cmt. 2). But, with respect to defining the scope of the
criminal activity in this case, the closest the district court came was saying it credited
testimony that “Mr. Brown and Mr. Owens were selling marijuana together.” J.A. 3049
(emphasis supplied). Yet the court never explained whether cocaine distribution was part
of their joint activity. Therefore, although we know the court understood Brown to have
agreed to participate in the overarching conspiracy, we lack a more specific finding that
encompasses cocaine. The Sentencing Guidelines and our precedent require more. See
Flores-Alvarado, 779 F.3d at 256 (“[T]he scope of the criminal activity jointly undertaken
by the defendant... is not necessarily the same as the scope of the entire conspiracy, and
hence

relevant

conduct

is

not

necessarily

the

same

for

every

participant

....” (emphasis in original) (quoting U.S.S.G. § 1B1.3 cmt. 2)).
V.
By holding Brown responsible for the full drug weight in the PSR, the district court
attributed Owens’s cocaine distribution to him without the requisite “particularized
findings with respect to both the scope of the defendant’s agreement and the foreseeability
of the conduct” involving that drug. Flores-Alvarado, 779 F.3d at 255 (emphasis omitted).
I cannot conclude that this error — which caused an under-supported 194-month upward
variance — was harmless. As a result, I would remand for adequate findings on the record
with regard to Brown’s agreement to and involvement in Owens’s drug distribution.
I therefore respectfully dissent.
31

